Department of Homeland Security
   2IÀFHRI,QVSHFWRU*HQHUDO


 FEMA's Sourcing for Disaster Response Goods & Services





OIG-09-96                                     August 2009
Table of Contents/Abbreviations 


Table of Contents

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


   Multiple Mechanisms Available for Sourcing................................................................ 3 

   Advantages and Disadvantages of Each Sourcing Mechanism ...................................... 8 


Results of Audit .................................................................................................................10 


   FEMA’s Sourcing Process............................................................................................ 10 

   Multiple Mechanisms Used to Source Selected Goods and Services........................... 14 

   Single-Point Ordering ................................................................................................... 15 

   Internal and External Pressure Impacts Sourcing Decisions ........................................ 19 

   Conclusion .................................................................................................................... 20 

   Recommendations......................................................................................................... 21 

   Management Comments and OIG Analysis ................................................................. 21 


Appendices
   Appendix A:          Purpose, Scope and Methodology
   Appendix B:          Management Comments to the Draft Report
   Appendix C:          Selected Information Technology Systems Used in the Sourcing Process
   Appendix D:          NRF Emergency Support Functions
   Appendix E:          List of Related Reports
   Appendix F:          Major Contributors to this Report
   Appendix G:          Report Distribution
Table of Contents/Abbreviations 


Abbreviations
ARF        Action Request Form
DHS        Department of Homeland Security
DLA        Defense Logistics Agency
EMAC       Emergency Management Assistance Compact
ESF        Emergency Support Function
FAR        Federal Acquisition Regulation
FEMA       Federal Emergency Management Agency
GAO        Government Accountability Office
GSA        General Services Administration
IAA        Interagency Agreement
ICS        Incident Command System
IFMIS      Integrated Financial Management Information System
IT         Information Technology
JFO        Joint Field Office
LIMS       Logistics Information Management System III
MA         Mission Assignment
MOA        Memorandum of Agreement
MOU        Memorandum of Understanding
NRCC       National Response Coordination Center
NRF        National Response Framework
NIMS       National Incident Management System
OIG        Office of Inspector General
PSMA       Pre-Scripted Mission Assignments
RRCC       Regional Response Coordination Center
USACE      U.S. Army Corps of Engineers
USDA       U.S. Department of Agriculture
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                When disaster strikes, the Federal Emergency Management Agency
                (FEMA) must be prepared to quickly provide goods and services to help
                state and local governments respond to the disaster. These resources can
                range from water and meals to tarps and blankets. Goods and services can
                be provided directly by FEMA, by another federal agency under direction
                from FEMA, or by the private sector through a contract with FEMA or
                another federal agency.

                FEMA has four primary sourcing mechanisms available to use in
                responding to a disaster: (1) warehoused goods; (2) mission assignments;
                (3) interagency agreements; and (4) contracts. FEMA needs to develop a
                clear, overarching strategy that guides decision making on which of these
                sourcing mechanisms to use to meet a particular need.

                FEMA’s disaster sourcing decisions are process driven and not compliant
                with the National Incident Management System. Decision making follows
                a linear process that is stove-piped within the Joint Field Office and
                among various levels of FEMA. This approach does not allow FEMA to
                centralize disaster sourcing decision making and limits its ability to:

                        •	       Implement an overarching sourcing strategy;
                        •	       Minimize unnecessary duplication;
                        •	       Take advantage of resource ordering efficiencies; and
                        •	       Create transparency and maintain visibility over the entire
                                 resource ordering process.

                Operational procedures that guide FEMA’s disaster response call for a
                single-point ordering concept to provide goods and services efficiently and
                effectively, while minimizing the risk of duplication and waste. However,
                implementation of this concept has been limited owing to existing
                stovepipes, overreliance on the existing sourcing process, and poor
                integration of information technology systems.

                We recommend that FEMA adopt the single-point ordering concept and
                invest in the necessary information technology systems to make sourcing
                and supply movement transparent.




                  FEMA’s Sourcing for Disaster Response Goods and Services


                                          Page 1

Background
             The Federal Emergency Management Agency’s (FEMA) primary mission
             is to reduce the loss of life and property and protect the Nation from all
             hazards, including natural disasters, acts of terrorism, and other manmade
             disasters, by leading and supporting the Nation in a risk-based,
             comprehensive emergency management system of preparedness,
             protection, response, recovery, and mitigation.

             When an emergency or disaster occurs, current doctrine dictates that
             government agencies and organizations most local to the situation act as
             first responders. When state and local governments become overwhelmed
             by the size or scope of the disaster, state officials may request assistance
             from the federal government.




             A member of the Texas Forest Service moves a batch of meals ready to eat (MRE) in a
             warehouse in Tyler, TX. Photo by Patsy Lynch/FEMA.

             In large emergencies or disasters, FEMA can provide goods and services,
             such as food, water, ice, tarps, generators, search and rescue teams,
             sheltering, and evacuation assistance.

             When Hurricane Gustav, and later Hurricane Ike, threatened the Gulf
             Coast, FEMA prepared to assist the affected states and to provide goods
             and services necessary to alleviate the impacts of these hurricanes. Table
             1 illustrates some of the assets that were deployed to Texas in anticipation
             of Hurricane Gustav.




               FEMA’s Sourcing for Disaster Response Goods and Services


                                       Page 2

                           Table 1. Examples of Assets Deployed for Hurricane Gustav

                                                        Asset                            Quantity
                           Emergency Meals                                                  855,760
                           Comfort / Hygiene Kits                                           100,000
                           Blankets                                                          41,000
                           Cots                                                              16,600
                           Liters of Water                                                   17,000
                           Medical Care Beds Staffed by 12 Teams                              3,360
                           Specialty Medical Response Teams                                       10
                           Urban Search and Rescue Teams                                           9
                          Source: OIG, based on information provided by FEMA


                          We performed an audit of FEMA’s sourcing for disaster goods and
                          services in response to hurricanes Gustav and Ike, which struck the Gulf
                          Coast in September 2008. We focused on six common goods and
                          services: water, ice, emergency meals, tarps, generators, and pet/animal
                          services. We limited our audit to goods and services provided to assist
                          Texas in responding to hurricanes Gustav and Ike. We examined FEMA’s
                          use of its primary sourcing mechanisms, 1 discussed below, each of which
                          has different associated procedures, costs, and risks. Our objective was to
                          assess FEMA’s decisionmaking strategy for choosing which sourcing
                          mechanism to use for different goods and services. (See Appendix A.)

        Multiple Mechanisms Available for Sourcing
                          FEMA has four primary sourcing mechanisms available for providing
                          disaster response goods and services: (1) warehoused goods; (2) mission
                          assignments; (3) interagency agreements; and (4) contracts.

                          Warehoused Goods

                          FEMA maintains an inventory of goods that might be needed in a disaster.
                          These goods are currently warehoused at nine distribution centers: six in
                          the continental United States and an additional three in Guam, Hawaii and
                          Puerto Rico. (See Figure 1.)




1
  FEMA also uses government purchase cards for individual purchases. We did not examine purchase cards as a
sourcing mechanism because they are generally designed for small individual purchases that do not exceed the
simplified acquisition threshold of $250,000. We are conducting a separate audit of FEMA’s use of purchase cards
and plan to issue a report in 2010.

                            FEMA’s Sourcing for Disaster Response Goods and Services


                                                         Page 3

Figure 1. FEMA Distribution Centers



                                                                        -



                                                       Disaster Information System
                                                          Clearinghouse (DISC)                 Frederick
   Moffett Field
                                                                             Cumberland

                                                                                          Winchester


                                                                             Atlanta
                                             Ft. Worth


   Pacific – Hawaii




                                            Pacific – Guam                                  -
                                                                                          Caribbean – Puerto Rico




Source: OIG, based on information provided by FEMA


          Most of the distribution centers store commonly needed disaster resources
          such as cots, blankets, emergency meals, bottled water, emergency
          generators, hygiene kits, plastic sheeting (roofing), and tarps. An
          inventory list dated July 7, 2008, contained thousands of items, including
          many commodities typically needed in the wake of a disaster, from those
          listed above to filing cabinets, desk lamps, pry bars, and jumper cables.
          Table 2 shows additional examples of goods that FEMA had on hand
          during the 2008 hurricane season

           Table 2. 	Examples of FEMA’s Warehoused Goods in
                     Place During the 2008 Hurricane Season


           Disposable diapers                        Ladders
           Earthquake supply kits                    Lanterns
           First aid kits                            Pet carriers
           Flashlights                               Plastic sheeting
           Folding cots                              Portable commodes
           Gas cans                                  Tents
           Emergency meals                           Wheelchairs
          Source: OIG, based on information provided by FEMA


            FEMA’s Sourcing for Disaster Response Goods and Services


                                         Page 4

                         In anticipation of a disaster, FEMA may begin moving disaster
                         commodities from distribution centers to pre-positioning sites, referred to
                         as Incident Support Bases or staging areas, near the potentially impacted
                         area. By pre-positioning goods for anticipated needs, FEMA can rapidly
                         move resources into an affected area post-disaster. Generally, FEMA will
                         pre-position enough resources to last for approximately 3 days, thereby
                         providing time to assess actual needs and bring in additional resources
                         from the distribution centers or by using other sourcing mechanisms.

                         Mission Assignments

                         A mission assignment is a work order issued by FEMA to another federal
                         agency that directs the completion of a specific task to meet urgent,
                         immediate, and short-term needs. The assigned federal agency must
                         complete the mission assignment within 60 days after the declaration,
                         unless FEMA extends the authorized performance period.

                         To expedite the delivery of federal assistance, FEMA developed 236 Pre-
                         Scripted Mission Assignments (PSMA) with 29 federal agencies prior to
                         the 2008 hurricane season. These PSMAs include statements of work and
                         cost estimates that are prepared prior to a disaster and can be modified and
                         placed in the FEMA mission assignment form to meet event-specific
                         needs.

                         Although FEMA had developed some PSMAs prior to Hurricane Katrina,
                         Section 653 of the Post-Katrina Emergency Management Reform Act of
                         2006 2 (Post-Katrina Reform Act) required the FEMA Administrator, in
                         coordination with federal agencies with responsibilities under the National
                         Response Plan, 3 to develop PSMAs to address logistics, communications,
                         mass care, health services, and public safety activities, in order to expedite
                         the delivery of federal disaster assistance. Table 3 provides examples of
                         PSMAs that were developed by the time hurricanes Gustav and Ike struck.




2
  Public Law 109-295, Department of Homeland Security Appropriations Act of 2007, Title VI – National 

Emergency Management. 

3
  The National Response Plan was replaced by the National Response Framework, effective March 22, 2008. 


                           FEMA’s Sourcing for Disaster Response Goods and Services


                                                    Page 5

                          Table 3. Examples of PSMAs in Place During the 2008
                                   Hurricane Season

                                    Agency                                 Description of Work
                          Environmental Protection                Conduct oil and hazardous materials
                          Agency                                  field operations
                          Federal Protective Service              Contract security officers
                          National Geospatial                     Support FEMA urban search and
                          Intelligence Agency                     rescue operations
                          National Park Service                   Support FEMA search and rescue
                                                                  disaster removal operations
                          U.S. Army Corps of                      Oversight of state and/or local
                          Engineers                               entities’ debris operations
                          U.S. Army Corps of                      Planning and preparation for
                          Engineers                               temporary roofing
                          U.S. Coast Guard                        Mobile communication teams
                          U.S. Department of                      Personnel to control the spread of
                          Agriculture                             animal disease agents
                          U.S. Department of                      Aircraft and personnel to support
                          Defense                                 medical patient evacuation
                          U.S. Department of                      Medical evacuation of patients
                          Health and Human
                          Services
                          U.S. Forest Service                     Emergency road clearing
                         Source: OIG, based on information provided by FEMA


                         Interagency Agreements

                         An interagency agreement (IAA) is another mechanism FEMA uses to
                         obtain supplies or services from another federal agency. 4 These
                         agreements can be used for both emergency response and long-term needs.
                         Pre-disaster IAAs are developed before an actual event and then activated
                         as needed.

                         FEMA also uses IAAs to access contracts held by other federal agencies.
                         For example, FEMA has IAAs in place with the Defense Logistics Agency
                         (DLA) and the General Services Administration (GSA) for a number of
                         items, including water and emergency meals. These agreements allow
                         FEMA to request certain goods or services from these agencies; then the
                         agencies use their own sourcing mechanisms, including contracts they
                         have in place, to provide the requested resources. Table 4 provides

4
  IAAs include Memorandums of Understanding (MOU) and Memorandums of Agreement (MOA). An IAA within
the same department is known as an intra-agency agreement. For example, FEMA’s agreement with the U.S. Coast
Guard, another DHS component, to patrol waterways is an intra-agency agreement.

                           FEMA’s Sourcing for Disaster Response Goods and Services


                                                        Page 6

                         examples of IAAs that FEMA had in place during the 2008 hurricane
                         season.

                           Table 4. 	Examples of IAAs in Place During the 2008 

                                     Hurricane Season 


                                     Agency                                  Good/Service
                           Defense Logistics Agency                Emergency meals
                           Federal Bureau of                       Fingerprint processing
                           Investigation
                           Federal Protective Service              Guard services
                           General Services                        Contract support for information
                           Administration                          systems operations
                           General Services                        Water
                           Administration
                           Immigration and Customs                 Transportation of the FEMA
                           Enforcement                             Administrator
                           U.S. Coast Guard                        Oversight of debris removal from
                                                                   navigable waterways
                           U.S. Department of                      Disaster Housing Assistance
                           Housing and Urban                       Program
                           Development
                         Source: OIG, based on information provided by FEMA


                         Contracts

                         A contract is another means available to FEMA for obtaining goods and
                         services. FEMA’s contracting is regulated by the Federal Acquisition
                         Regulation (FAR), which permits certain exceptions in emergency
                         situations, as outlined in FAR Part 18-Emergency Acquisitions.

                         The DHS OIG, the President’s Council on Integrity and
                         Efficiency/Executive Council on Integrity and Efficiency, 5 and the
                         Government Accountability Office (GAO) all reported in the wake of
                         Hurricane Katrina that FEMA’s contracting suffered from poor pre-
                         disaster planning and preparation. 6

                         In response to this shortcoming, Section 691 of the Post-Katrina Reform
                         Act required FEMA to identify “recurring disaster response requirements,

5
  The Inspector General Reform Act of 2008 (Public Law 110-409) combined these two councils into the Council of 

the Inspectors General on Integrity and Efficiency. 

6
  See, for example, Department of Homeland Security Office of Inspector General, Hurricane Katrina Temporary

Housing Technical Assistance Contracts (OIG-08-88), August 2008; President’s Council on Integrity and

Efficiency/Executive Council on Integrity and Efficiency, PCIE ECIE Oversight of Gulf Coast Hurricane Recovery:

A Semiannual Report to Congress, October 2006; Government Accountability Office, Hurricane Katrina: 

Improving Federal Contracting Practices in Disaster Recovery Operations (GAO-06-714T), May 4, 2006. 


                            FEMA’s Sourcing for Disaster Response Goods and Services


                                                        Page 7

                             including specific goods and services, for which the Agency is capable of
                             contracting for in advance of a natural disaster or act of terrorism or other
                             man-made disaster in a cost effective manner” and “a contracting strategy
                             that maximizes the use of advance contracts to the extent practical and
                             cost-effective.”

                             As of July 10, 2008, FEMA reported having 44 advance contracts in place
                             for disaster response. FEMA assessed suitability for advanced contracting
                             using such factors as inventory carrying costs; length of shelf life; storage
                             and handling considerations; and availability of pre-positioned material, as
                             well as contracts held by federal partners. Table 5 contains examples of
                             services for which FEMA had developed advance contracts prior to the
                             2008 hurricane season.

                              Table 5. 	Examples of Advance Contracts in Place During 

                                        the 2008 Hurricane Season 


                                                               Type of Service
                              Ambulance services
                              Base camp support
                              Disaster legal services
                              Evacuation planning and operational support
                              Generator maintenance
                              Hotel authorization (intake management) for disaster victims
                              Housing inspection services
                              Maintenance of disaster housing
                              Temporary housing support
                             Source: OIG, based on information provided by FEMA


                             FEMA stated in its report to Congress that it had identified 13 categories
                             of goods and 9 categories of services that would be appropriate for pre-
                             disaster contracting. 7 While pre-disaster contracts were in place for the
                             services listed above, no contracts were in place for goods as of July 10,
                             2008.

           Advantages and Disadvantages of Each Sourcing Mechanism
                             Each sourcing mechanism has advantages and disadvantages. For
                             example, a primary advantage of maintaining goods in warehouses is that
                             these goods are immediately available to FEMA. The disadvantage is that
                             most stocked goods have a shelf life and, in quiet disaster seasons, goods
                             may expire. FEMA tries to counterbalance this problem by having a
                             centralized warehouse disbursement system, so that goods with a limited
                             shelf life are sent out to the next disaster, with less regard for physical

7
    This report was required in Section 691 of the Post-Katrina Reform Act.

                               FEMA’s Sourcing for Disaster Response Goods and Services


                                                            Page 8

storage location. FEMA also performs a feasibility review of goods that
are within 6 months of their expiration date. If no immediate need is
determined, goods might be disposed of through GSA or donated to a
federal, state, or local partner, or to charity.

Mission Assignments

Mission assignments allow FEMA to quickly task federal partners to
provide critical resources, services or expertise. This allows FEMA to
focus on its own mission without having to develop expertise in a number
of fields already available from other federal agencies. However, FEMA
must ensure that disaster relief funds are used appropriately and are not
used by another federal agency to augment its regular appropriations.
Some FEMA officials told us that mission assigned activities are not
always closely monitored by FEMA. As a result, mission assigned
agencies might inappropriately bill FEMA for activities outside the scope
of the mission assignment.

Interagency Agreements

IAAs offer important benefits, including access to pre-qualified sources,
the ability to leverage resources, and access to a broad range of goods and
services using streamlined procedures that permit rapid response. Because
the task becomes the responsibility of another federal agency, however,
there is some loss of visibility on FEMA’s part. Additionally, when
FEMA uses IAAs to access contracts let by another agency, that agency
generally charges FEMA a fee. FEMA acquisition officials said that in
some cases, they believe it would be more cost effective to use FEMA
contracts.

Contracts

Contracts in place before a disaster might speed the delivery of assistance
and result in a better negotiated price than would be possible in the midst
of disaster response. A disadvantage is that advance contracts for services
often require a guaranteed minimum amount, or standby fee, that must be
paid to the vendor whether or not the contract is ever used. FEMA
officials said they find it difficult to obtain funds for standby fees, and
they are sometimes criticized for wasting funds when an advance contract
is never activated because of a quiet disaster season.




  FEMA’s Sourcing for Disaster Response Goods and Services


                          Page 9

Results of Audit
        FEMA’s Sourcing Process
                          FEMA does not have an overarching, agency-wide strategy or policy for
                          disaster sourcing. However, as discussed below, each directorate/section
                          involved in sourcing does have processes in place.

                          Emergency management doctrine calls for response to begin at the local
                          level. Therefore, local jurisdictions usually attempt to fulfill needs
                          themselves, from existing resources, mutual aid agreements, 8 or by
                          contracting with the private sector. If the disaster is beyond its
                          capabilities, a local jurisdiction may request assistance from the county or
                          state government. When the state receives a request for assistance from a
                          local government, it attempts to address the request using existing or
                          commercial resources, or through the Emergency Management Assistance
                          Compact (EMAC) 9 or other mutual aid agreement. If the state cannot
                          fulfill the need, the state’s governor can request federal assistance.

                          Federal assistance is authorized by the Robert T. Stafford Disaster Relief
                          and Emergency Assistance Act (Stafford Act). Stafford Act assistance is
                          available from FEMA if the President determines that an event is of
                          sufficient severity and magnitude to warrant an emergency or major
                          disaster declaration under this Act and that supplementary federal
                          assistance is warranted to alleviate the damages or hardship. When federal
                          assistance is approved, FEMA uses its sourcing mechanisms to provide
                          requested goods and services.

                          During disaster response, sourcing decision makers do not always follow
                          the same script. Under FEMA’s current approach, the Operations Section
                          Chief is the initial primary decision maker. Because of the importance of
                          the mission and exigency of operations, Operations Section Chiefs often
                          use the sourcing mechanisms with which they are most comfortable and
                          that they perceive as having been most successful in their past experience.
                          Figure 2 illustrates the general process FEMA uses to decide the sourcing
                          mechanism to be used to meet a particular need. This figure represents
                          sourcing as it takes place once a Joint Field Office (JFO) has been
                          established. 10


8
  Mutual aid can be provided locality to locality, such as when one county’s fire department helps another county 

respond to a large fire, or state to state, such as when one state’s National Guard troops assist in another state. 

9
  Mutual aid responses are usually facilitated through the EMAC. EMAC provides the legal foundation for one state 

providing assistance to another through a mutual aid agreement and addresses issues such as cost reimbursement, 

workers’ compensation, and liability coverage for responders. 

10
   For a no-notice event, such as an earthquake, the National Response Coordination Center (NRCC), located at 

FEMA Headquarters, would be the first line in sourcing decisions. 


                             FEMA’s Sourcing for Disaster Response Goods and Services


                                                     Page 10

Figure 2. FEMA’s Sourcing Process




                                          FEMA logs the ARF into
                                            the Action Tracking                         Decision Point 1:                      Request is
       The state submits an               System and forwards it
       Action Request Form                  onto the Operations                  FEMA’s Operations Chief
                                                                                                                              not eligible,
         (ARF) to FEMA                        Section Chief to                     determines eligibility                     state notified
                                            determine eligibility



                                                                                                     Request is eligible




                                                  No                                     Decision Point 2:

                                                                                   FEMA’s Operations Chief
                                                                                  determines whether request
                                                                                     can be met by FEMA
                                                                                     through warehoused
                                                                                            goods

                      Decision Point 3:

                                                                                                             Yes               Logistics processes
                  FEMA’s Operations Chief
                                                                                                                                e-Tasker to direct
                   evaluates the sourcing
                                                                                                                                FEMA assets from
                   options or mechanisms
                                                                                                                                distribution centers




                                                             Mission Assignments (MA)
                                                        Coordinates with ESFs and other federal
                                                       agencies to obtain goods and services via
                                                                 mission assignments




                               Referral made
                                                                    Decision Point 4:
                                to Logistics
                                                             If a MA is not used, FEMA’s
                                                             Logistic Chief determines the               * If the request cannot be met by an
                                                                  sourcing methods*                    interagency agreement or contract, the
                                                                                                     Logistics Section Chief will refer the request
                                                                                                        back to the Operations Section Chief




                                                       Interagency Agreements or Contracts
                                                    Coordinates with other federal agencies and/or
                                                     federal contracting officials to obtain needed
                                                                  goods and services




     Responsible JFO Section Chiefs


           Operations Section                    Logistics Section                  Finance/Administration Section
Source: OIG, based on information provided by FEMA




                                     FEMA’s Sourcing for Disaster Response Goods and Services


                                                                            Page 11

                          The sourcing process begins when a state submits a resource request to
                          FEMA via an Action Request Form (ARF). 11 This can occur at multiple
                          FEMA coordination response locations, but commonly the Regional
                          Response Coordination Center (RRCC) handles requests from the state
                          until a JFO is operational.

                          FEMA enters the ARF information into the Action Tracking System,
                          which is intended to track the request to disposition. 12

                          Decision Point 1: Once the resource request is entered into the Action
                          Tracking System, the Operations Section Chief reviews the request to
                          determine if the requirement is (1) clearly stated, (2) eligible for federal
                          assistance, (3) beyond state and local capability, and (4) not the statutory
                          authority of another federal agency. If these criteria are not met, the
                          Operations Section Chief will return the ARF to the state.13 If these
                          criteria are met, the request will be evaluated to determine if the
                          requirement can be filled through FEMA’s warehoused goods.

                          Decision Point 2: If the request can be met with warehoused goods, the
                          FEMA Logistics Section will direct FEMA assets from the distribution
                          centers to a location closer to the disaster. Based on distribution center
                          inventory information, FEMA can determine whether adequate
                          warehoused resources are available. FEMA officials stated that requests
                          for commodities such as water and meals are automatically forwarded to
                          the Logistics Section to be supplied by FEMA’s distribution centers.

                          If the need cannot be met through FEMA warehoused goods, then FEMA
                          uses other mechanisms to address the request. The Operations Section
                          Chief meets with FEMA’s federal partners to ascertain whether the good
                          or service would be available by mission assignment.

                          Decision Point 3: The Operations Section Chief may decide to address the
                          requirement by mission assignment and coordinates with the appropriate
                          Emergency Support Function (ESF) or other federal agency to develop a
                          scope of work and cost estimate. 14 FEMA officials cite three primary
                          reasons for using mission assignments:

                                   1.	 The requirement is time-sensitive and normally involves health
                                       and safety issues.

11
   Other federal agencies can also make requests to FEMA using the ARF. For illustration purposes we limit our

discussion to disaster requests from states. 

12
   See Appendix C for descriptions of information technology systems used in the sourcing process. 

13
   The Operations Section Chief may also return the ARF to the state if the requested resource or service can be 

addressed more effectively by the state and included in the state’s claim for reimbursement under FEMA’s Public

Assistance (PA) Program, if that assistance is available to the state as designated in disaster declaration.

14
   See Appendix D for a description of the Emergency Support Functions.


                             FEMA’s Sourcing for Disaster Response Goods and Services


                                                      Page 12

        2.	 FEMA has a history of using mission assignments to address
            certain requirements.
        3.	 Senior leaders specifically direct the use of a mission
            assignment.

Decision Point 4: If the Operations Section Chief decides to refer the
requirement to the Logistics Section instead of addressing the requirement
by mission assignment, the Logistics Section Chief will determine if the
request can be met by an IAA with another federal agency such as GSA or
DLA. If the request cannot be met by an IAA, the Logistics Section Chief
may submit a request for contract services or refer the request back to the
Operations Section Chief for further mission assignment consideration.

If the Logistics Section Chief decides to contract for the required service
or resource, a contract service request will be forwarded to the
Finance/Administration Section Chief. If the contract service request is
approved, the Finance/Administration Section will work with the
appropriate FEMA program management and acquisition personnel to
solicit, evaluate, and negotiate the contract award.

Figure 2 shows the various decision making points within the JFO’s
unified command structure. This approach:

        •	       Does not comply with the National Incident Management
                 System (NIMS);
        •	       Does not allow FEMA to centralize disaster sourcing
                 decision making; and
        •	       Limits FEMA’s ability to apply an overarching sourcing
                 strategy, minimize unnecessary duplication, take advantage
                 of resource ordering efficiencies, and maintain visibility
                 over the entire resource ordering process.

Sourcing options which may be more efficient or cost effective are not
always explored. Additionally, the current sourcing process places a
significant amount of resource ordering responsibility in the Operations
Section, which is not consistent with NIMS. According to NIMS, the
Logistics Section is responsible for ordering, receiving, processing,
storing, inventorying, and distributing all incident-related resources and
supplies.




  FEMA’s Sourcing for Disaster Response Goods and Services


                          Page 13

        Multiple Mechanisms Used to Source Selected Goods and Services
                          We focused on six goods and services that FEMA commonly provides
                          during a disaster. Table 6 presents sourcing mechanisms that FEMA used
                          to provide the selected goods and services in response to hurricanes
                          Gustav and Ike in Texas. The table shows that FEMA sometimes uses
                          multiple mechanisms to source a particular good or service. For example,
                          FEMA used all four mechanisms to provide water. FEMA also:

                               •	 Had a supply of water, emergency meals, generators, and tarps in
                                  its warehouses and used these resources during the response.
                               •	 Used an IAA with the General Services Administration (GSA) for
                                  water and one with the Defense Logistics Agency (DLA) for
                                  emergency meals.
                               •	 Used PSMAs with the U.S. Army Corps of Engineers (USACE)
                                  for water, ice, and generator installation.
                               •	 Used IAAs with GSA and the U.S. Department of Agriculture
                                  (USDA), as well as a PSMA with USDA for pet and animal
                                  services.
                               •	 Used private sector contracts for water, emergency meals and
                                  tarps. 15

                            Table 6. 	Sourcing Mechanisms FEMA Used in Responding to
                                      Hurricanes Gustav and Ike in Texas


                                                   Warehoused         Interagency     Mission
                                                                                                    Contracts
                                                     Goods            Agreements    Assignments
                                                                                                      Private
                            Water                     FEMA                GSA         USACE
                                                                                                      Sector
                            Ice                                                       USACE

                            Emergency                                                                 Private
                                                      FEMA                DLA
                            Meals                                                                     Sector
                            Generators and
                            Generator                  FEMA                          USACE
                            Installation 16
                                                                                                      Private
                            Tarps                     FEMA
                                                                                                      Sector
                            Pet/Animal                                    GSA,
                                                                                      USDA
                            Services                                      USDA
                          Source: OIG, based on information provided by FEMA



15
   FEMA did not have contracts for water, emergency meals, or tarps in place prior to the 2008 hurricane season and

had to award contracts post-disaster for these goods. 

16
   FEMA provided generators from its warehoused goods and used mission assignments with USACE for generator 

installation.


                             FEMA’s Sourcing for Disaster Response Goods and Services

                                                        Page 14
           Multiple sourcing mechanisms increase FEMA’s flexibility to meet needs
           in a timely manner. However, while FEMA does have some sourcing
           mechanisms in place before a disaster, it does not always take advantage
           of this flexibility once a disaster occurs. FEMA officials said that when
           deciding what source to use to fulfill a state’s request for assistance, they
           often rely on what they believe has worked best in the past. The choice is
           based on an individual’s own experiences, which may have been
           influenced by lessons learned from previous disasters, best practices and
           training, but this demonstrates that FEMA does not follow one strategy for
           sourcing. Relying on previous experience may not account for better
           sourcing alternatives.

Single-Point Ordering
           FEMA needs an overarching disaster sourcing strategy. FEMA’s current
           disaster sourcing process is linear, resulting in fragmented decision
           making. NIMS prescribes single-point ordering under the Incident
           Command System (ICS).

           National Incident Management System

           Homeland Security Presidential Directive-5, Management of Domestic
           Incidents, directs the Secretary of Homeland Security to develop and
           administer NIMS. This system is intended to provide a comprehensive
           and consistent approach for federal, state, and local governments to work
           together effectively and efficiently to prepare for, respond to, and recover
           from domestic incidents.

           NIMS includes a core set of concepts, principles, terminology, and
           technologies covering, among others, the ICS, which is a standardized
           management tool that represents “best practices” in emergency
           management across the country. All federal agencies are directed to use
           NIMS in their domestic incident management and emergency prevention,
           preparedness, response, recovery, and mitigation activities. NIMS creates
           a proactive system to assist those responding to incidents or planned
           events and is built on existing emergency management structures.

           According to NIMS, a unified command works best when, among other
           elements, the participating members co-locate and establish a single
           system for ordering/sourcing resources. This co-location usually takes
           place at a JFO. Figure 3 illustrates resource ordering roles and
           responsibilities under the ICS structure. Under this configuration, the
           Logistics Section, specifically the Supply Unit, is responsible for ordering,
           receiving, processing, storing, inventorying, and distributing all incident-
           related resources and supplies.

             FEMA’s Sourcing for Disaster Response Goods and Services


                                     Page 15

                   Figure 3. Resource Ordering Roles and Responsibilities Under ICS




                   Source: OIG, based on information provided by FEMA


                           According to DHS’ JFO Activation and Operations Interagency Integrated
                           Standard Operating Procedure (Interim Approval, April 2006), the JFO
                           Logistics Section Chief can fill operational requirements:

                                     •	 From resources at the JFO logistics base, including private-
                                        sector resources available to the JFO (warehoused goods);
                                     •	 By direct mission assignment or memorandum of agreement to
                                        another agency (mission assignment or interagency/intra-
                                        agency agreement); or
                                     •	 By preparing a requisition and recommending commercial
                                        sources for goods and services to the JFO
                                        Finance/Administration Section (contract or interagency
                                        agreement).

                           According to this document, for resources that are still not readily
                           available through the options above, the JFO Logistics Section Chief can
                           pass the requirement to FEMA’s RRCC or the NRCC for action. This
                           approach is further supported by FEMA job aids 17 issued in April 2008 for



17
  FEMA job aids, or Disaster Workforce Task Books, are written to clarify and review the tasks that make up
particular positions at a JFO.

                              FEMA’s Sourcing for Disaster Response Goods and Services


                                                          Page 16

various positions within the Operations and Logistics sections. These job
aids indicate that:

        •	 The Operations Section Chief’s responsibilities include
           identifying requirements and forwarding requests for supplies,
           services, equipment, or other support to the Logistics Section.
        •	 The Logistics Section Chief’s responsibilities include
           monitoring financial activities for logistics operations, supplies,
           and equipment resources through the single-point ordering
           process.

              •	 The ordering unit leader’s responsibilities include
                 establishing a single-point ordering system for all
                 resources.
              •	 The ordering manager or specialist’s responsibilities
                 include providing resource ordering and tracking
                 functions.

The National Response Framework (NRF), the federal government’s plan
for integrating domestic prevention, preparedness, response, and recovery
plans into one all-discipline, all-hazards plan, also supports the single-
point ordering concept. ESF 7 – Logistics Management and Resource
Support Annex (ESF-7) to the NRF states that the logistics management
structure is responsible for establishing and executing IAAs,
MOAs/MOUs with other federal agencies and nongovernmental
organizations, as well as standby logistics contracts with private sources.
ESF-7 also states that the logistics management structure at the
regional/field/JFO level is responsible for implementing a single-point
ordering process.

Obstacles to FEMA’s Implementation of Single-Point Ordering

There are obstacles that must be overcome in order to fully implement the
single-point ordering approach called for in operational procedures that
guide FEMA’s disaster response. One senior FEMA official outlined two
major obstacles. He stated that the current sourcing process is stove-piped
between the Operations and Logistics sections, and it will be difficult to
break down those barriers. Additionally, he said that there is a level of
comfort in the way disaster sourcing is currently performed. This is
consistent with what other FEMA officials told us, in that they tend to use
the sourcing mechanism that has been successful for them in the past.

We were also told that FEMA directorates (at the headquarters level) and
divisions (at the regional level) operate independently instead of
collaboratively. During the Gustav response, both FEMA Headquarters
and the FEMA Region worked on acquiring pet supplies without realizing

  FEMA’s Sourcing for Disaster Response Goods and Services


                          Page 17

                           that their efforts were duplicative. This lack of coordination led to an
                           over-ordering of pet supplies. Operational stove-pipes have created a
                           fragmented process for ordering resources such as personnel, 18 supplies
                           and commodities. A single-point ordering concept would help bring order
                           to the disaster sourcing process and minimize duplication. This concept
                           would also allow for a more methodical approach for responding to
                           disaster requirements.

                           One FEMA logistics official stated that a single-point ordering and
                           tracking system is needed because currently there are many disaster
                           sourcing decision points, resulting in limited visibility over the ordering
                           process. This concept would bring together those responsible for
                           obtaining goods and services for a disaster under one system. Ordering
                           and coordination between the operations, logistics and acquisition groups,
                           and other federal ordering agencies such as GSA, USACE, and DLA,
                           would occur at a single point. This official also stressed the need to track
                           ordered resources from request to disposition, suggesting that the
                           responsibility for tracking should be placed in the Logistics Section,
                           consistent with FEMA job aids.

                           An additional obstacle is the multiple, non-integrated systems currently
                           used in the ordering process. For example, the JFO
                           Finance/Administration Section uses the Automated Deployment Database
                           to request and track personnel. Active contracts are kept in ProTrac, the
                           software used by contracting officers. The Operations and Logistics
                           sections use the Enterprise Coordination and Approval Processing System
                           (eCAPS) to process mission assignments and 40-1s (FEMA’s Requisition
                           and Commitment for Services and Supplies form), respectively. The
                           Logistics Section uses e-Tasker to request commodities, the Logistics
                           Information Management System III (LIMS) for property inventory, and
                           information technology (IT) equipment is requested through yet a separate
                           system. FEMA’s various IT systems do not interface, which creates
                           problems in tracking requests and accounting for property. FEMA
                           officials stressed that to perform single-point ordering effectively, FEMA
                           needs a system, preferably web-based, that will integrate these
                           independent systems.

                           Single-point ordering can contribute to FEMA’s ability to balance
                           effectiveness, agility, reliability, speed, visibility, and cost in sourcing.
                           Single-point ordering is discussed at FEMA, but it has not yet been
                           implemented and will work well only if it is supported by integrated IT
                           systems.


18
  While this report focuses on goods and services, another resource that would fall under the single point ordering
system is disaster personnel, who are currently deployed through the Finance/Administration Section.

                             FEMA’s Sourcing for Disaster Response Goods and Services


                                                      Page 18

           On April 16, 2009, shortly after our fieldwork ended, FEMA’s Acting
           Administrator issued a memorandum directing all regional administrators
           to immediately implement the newly developed operations and logistics
           integration guidance. This guidance is the product of a task force
           established to develop guidance for and to ensure complete transparency
           through communications and coordination between Operations and
           Logistics at all levels during preparedness, response and recovery
           operations. The task force developed guidance documentation that places
           responsibility for establishing single-point ordering in the Logistics
           Section. The single-point ordering process described in the guidance
           appears to be very similar to what we describe above and recommend
           FEMA implement.

           We discussed this new guidance with FEMA officials involved in its
           creation, who estimated that single-point ordering is 5 years from full
           implementation. Roles must be better defined, and buy-in from key
           players is critical. Further challenges include obtaining necessary funding,
           training all of the staff in this concept, and developing IT systems that
           integrate effectively.

Internal and External Pressure Impacts Sourcing Decisions
           Some sourcing decisions are made in response to pressure from internal
           and external officials and are not necessarily based on actual need or a
           request from the affected state. While FEMA’s job aids, the NRF and
           other disaster response manuals provide guidance on the sourcing process,
           this guidance is sometimes short-circuited by officials, often political
           appointees or elected representatives of the disaster area, who use their
           influence to ensure that goods and services are provided. While often
           well-meaning, this pressure can result in waste when the goods or services
           are not needed and can be disruptive to the sourcing process. For
           example, during hurricanes Gustav and Ike, FEMA Headquarters pushed
           $30 million of water and ice to Texas even though the state did not request
           this assistance because Texas had its own water and ice contracts in place.
           When power was restored to the hurricane region earlier than had been
           expected, FEMA determined that the prudent decision was to allow the
           unused ice to melt. FEMA would not have ordered the ice if FEMA’s
           appointed leadership had not applied pressure on logistics decision
           makers.




             FEMA’s Sourcing for Disaster Response Goods and Services


                                     Page 19

                           A resident of Galveston Island gets ice, food and water at a distribution site.
                           Photo by Patsy Lynch/FEMA.

                           FEMA will always face a certain level of political pressure. Single-point
                           ordering will not stop this type of pressure, but if it is supported by IT
                           systems that provide increased visibility and transparency, 19 it will
                           provide a focal point for such input and increase the availability of
                           information on what goods and services have been requested, ordered, and
                           delivered. 20

         Conclusion
                           FEMA is called upon to provide essential goods and services to help state
                           and local governments respond to disasters. While FEMA is generally
                           successful in delivering these goods and services, duplication and waste
                           does occur. This is the result of a linear, stove-piped process and a lack of
                           integrated systems.

                           The National Incident Management System, based on “best practices” in
                           emergency management, prescribes single-point ordering, under which the
                           Logistics Section is responsible for ordering all incident-related resources
                           and supplies. Coupled with an integrated IT system, implementing this


19
   FEMA is in the process of developing Total Asset Visibility (TAV) that will provide better visibility and tracking

of FEMA assets, but this system is not yet fully operational. 

20
   The impact of political pressure on FEMA’s disaster response activities is further examined in the Management

Advisory Report, FEMA’s Response to Hurricane Ike (OIG-09-78), issued in June 2009. 


                             FEMA’s Sourcing for Disaster Response Goods and Services


                                                       Page 20

          concept will allow greater transparency over disaster sourcing and
          delivery, and will increase FEMA’s effectiveness in disaster response.

Recommendations
          We recommend that the Administrator, Federal Emergency Management
          Agency:

          Recommendation 1: Implement the single-point ordering concept
          prescribed by the National Incident Management System, coordinating all
          sourcing through the Logistics Section.

          FEMA officials have indicated that full implementation of the single-point
          ordering concept could take up to 5 years. Therefore, we recommend that,
          as an incremental step, the Administrator develop a timeline and interim
          steps for co-locating the appropriate personnel from the
          Finance/Administration Section and the Operations Section with the
          Ordering Unit in the Logistics Section, as discussed in the “FEMA
          Integrated Operations and Logistics Guidance” dated April 6, 2009.

          Recommendation 2: Invest in the necessary information technology
          systems to ensure full integration of existing FEMA systems to support
          single-point ordering and enhance visibility over the sourcing process.

Management Comments and OIG Analysis

          FEMA concurs with our recommendations and will provide us with a
          detailed corrective action plan, with timeframes, in 90 days. We consider
          the two recommendations resolved but open, pending receipt and review
          of FEMA’s corrective action plan.




           FEMA’s Sourcing for Disaster Response Goods and Services


                                   Page 21

Appendix A
Purpose, Scope, and Methodology


                   Our objective was to review (1) FEMA’s plans and strategies for
                   sourcing goods and services in response to disasters, and (2)
                   FEMA’s ability to manage and implement its plans and strategies
                   for sourcing. We reviewed relevant laws, federal regulations, and
                   DHS and FEMA policies and guidance. We also reviewed
                   congressional testimony and prior Office of Inspector General and
                   Government Accountability Office audit reports.

                   We conducted our audit from July 2008 to March 2009, analyzing
                   FEMA’s plans and strategies for sourcing disaster goods in
                   response to hurricanes Gustav and Ike in Texas. Specifically, we
                   reviewed the following four sourcing mechanisms: (1) warehoused
                   goods; (2) mission assignments; (3) interagency agreements; and
                   (4) contracts, and the decision-making processes for deciding
                   which sourcing mechanism to use.

                   We met with FEMA officials at headquarters and in the field, and
                   with the State Coordinator for Resources & Logistics in the Texas
                   Emergency Management Division. During September, October
                   and November 2008, we were onsite at the Austin JFO, which was
                   coordinating FEMA’s response to the hurricanes in Texas.

                   We selected and examined six resources FEMA provided in the
                   wake of hurricanes Gustav and Ike in Texas: water, ice, emergency
                   meals, tarps, generators and their installation, and pet/animal
                   services, to determine whether FEMA has a strategy for choosing a
                   sourcing mechanism to use for each of these resources.

                   We conducted this audit under the authority of the Inspector
                   General Act of 1978, as amended, and according to generally
                   accepted government auditing standards.




                 FEMA’s Sourcing for Disaster Response Goods and Services


                                         Page 22

Appendix B
Management Comments to the Draft Report




                 FEMA’s Sourcing for Disaster Response Goods and Services


                                         Page 23

FEMA’s Sourcing for Disaster Response Goods and Services


                        Page 24

Appendix C
Selected Information Technology Systems Used in the Sourcing Process

                    Action Tracking System is a computerized tracking database used
                    by the Action Tracker to maintain status and disposition of all
                    incoming action requests.

                    Automated Deployment Database (ADD) is used to identify and
                    deploy personnel to disaster sites.

                    eCAPS is used to provide electronic coordination and approval of
                    the Requisition and Commitment for Services and Supplies
                    (FEMA Form 40-1) and Mission Assignments (MA). This is a
                    web-based service and will support all 40-1s and MAs processed in
                    FEMA that are disaster related.

                    eTasker is a web-based system designed to provide FEMA
                    Logistics Management Coordinators with an automated,
                    standardized system to record all activities associated with
                    fulfilling requests for goods or resources submitted.

                    Integrated Financial Management Information System (IFMIS) is
                    FEMA’s official accounting system that maintains and processes
                    all financial data. IFMIS is the source of all FEMA financial data
                    for both internal and external reporting.

                    Logistics Information Management System III (LIMS) is the
                    system of record for personal property accountability requirements.
                    Personal property includes items such as computers, cell phones,
                    generators, and office furniture.

                    ProTrac is the contract management and tracking software used by
                    the Acquisition Management Division.




                  FEMA’s Sourcing for Disaster Response Goods and Services


                                          Page 25

Appendix D
NRF Emergency Support Functions

The Emergency Support Function (ESF) structure is used to coordinate federal
interagency support for incident response. Various federal agencies are assigned as ESF
coordinators, primary agencies, or support agencies. These roles are further defined in
the ESFs Annexes to the National Response Framework (NRF).

This table identifies the ESFs and the basic responsibilities of each.

                ESF                                                     Scope
1 – Transportation                            Aviation/airspace management and control
                                              Transportation safety
                                              Restoration/recovery of transportation infrastructure
                                              Movement restrictions
                                              Damage and impact assessment
2 – Communications                            Coordination with telecommunications and IT
                                                 industries
                                              Restoration and repair of telecommunications
                                                 infrastructure
                                              Protection, restoration, and sustainment of national
                                                 cyber and IT resources
                                              Oversight of communications within the federal
                                                 incident management and response structures
3 – Public Works and Engineering              Infrastructure protection and emergency repair
                                              Infrastructure restoration
                                              Engineering services and construction management
                                              Emergency contracting support for life-saving and
                                                 live-sustaining services
4 - Firefighting                              Coordination of federal firefighting activities
                                              Support to wildland, rural, and urban firefighting
                                                 operations
5 – Emergency Management                      Coordination of incident management and response
                                                 efforts
                                              Issuance of mission assignments
                                              Resource and human capital
                                              Incident action planning
                                              Financial management
6 – Mass Care, Emergency                      Mass care
Assistance, Housing, and Human                Emergency assistance
Services                                      Disaster housing
                                              Human services
7 – Logistics Management and                  Comprehensive, national incident logistics planning,
Resource Support                                 management, and sustainment capability
                                              Resource support (facility space, office equipment and
                                                 supplies, contracting services, etc.)




                     FEMA’s Sourcing for Disaster Response Goods and Services


                                             Page 26

                 ESF                                                   Scope
8 – Public Health and Medical               Public health
Services                                    Medical
                                            Mental health services
                                            Mass fatality management
9 – Search and Rescue                       Life-saving assistance
                                            Search and rescue operations
10 – Oil and Hazardous Materials            Oil and hazardous materials (chemical, biological,
Response                                      radiological, etc.) response
                                            Environmental and short- and long-term cleanup
11 – Agriculture and Natural                Nutrition assistance
Resources                                   Animal and plant disease and pest response
                                            Food safety and security
                                            Natural and cultural resources and historic properties
                                              protection
                                            Safety and well-being of household pets
12 – Energy                                 Energy infrastructure assessment, repair, and
                                              restoration
                                            Energy industry utilities coordination
                                            Energy forecast
13 – Public Safety and Security             Facility and resource security
                                            Security planning and technical resource assistance
                                            Public safety and security support
                                            Support to access, traffic, and crowd control
14 – Long-Term Community                    Social and economic community impact assessment
Recovery                                    Long-term community recovery assistance to states,
                                              local governments, and the private sector
                                            Analysis and review of mitigation program
                                              implementation
15 – External Affairs                       Emergency public information and protective action
                                              guidance
                                            Media and community relations
                                            Congressional and international affairs
                                            Tribal and insular affairs

For further information regarding ESFs and the National Response Framework, please
see www.fema.gov/emergency/nrf/.




                   FEMA’s Sourcing for Disaster Response Goods and Services


                                           Page 27

Appendix E
List of Related Reports


U.S. Coast Guard’s Management of 2005 Gulf Coast Hurricanes Mission Assignment
   Funding (OIG-09-34), March 2009, www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-
   34_Mar09.pdf

FEMA’s Implementation of Best Practices in the Acquisition Process (OIG-09-31),
  February 2009, www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-31_Feb09.pdf

Internal Controls in the FEMA Disaster Acquisition Process (OIG-09-32), February
    2009, www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-32_Feb09.pdf

National Communications System’s Management of 2005 Gulf Coast Hurricanes Mission
   Assignment Funding (OIG-09-23), February 2009,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-23_Feb09.pdf

U.S. Immigration and Customs Enforcement’s Management of 2005 Gulf Coast
   Hurricanes Mission Assignment Funding (OIG-09-22), February 2009,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-22_Feb09.pdf

Challenges Facing FEMA’s Acquisition Workforce (OIG-09-11), November 2008,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-11_Nov08.pdf

Hurricane Katrina Multitier Contracts (OIG-08-81), July 2008,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_08-81_Jul08.pdf

U.S. Customs and Border Protection’s Management of 2005 Gulf Coast Hurricanes
   Mission Assignment Funding (OIG-08-80), July 2008,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_08-80_Jul08.pdf

Logistics Information Systems Need to Be Strengthened at the Federal Emergency
   Management Agency (OIG-08-60), May 2008,
   www.dhs.gov/xoig/assets/mgmtrpts/OIG_08-60_May08.pdf

FEMA’s Preparedness for the Next Catastrophic Disaster (OIG-08-34), March 2008,
  www.dhs.gov/xoig/assets/mgmtrpts/OIG_08-34_Mar08.pdf




                   FEMA’s Sourcing for Disaster Response Goods and Services


                                           Page 28

Appendix F

Major Contributors to This Report.


                    Donald Bumgardner
                    Amy Hall
                    Moises Dugan
                    Trudi Powell
                    Jacob Farias
                    Kristofer Hensley




                  FEMA’s Sourcing for Disaster Response Goods and Services

                                          Page 29
Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff of Operations
                      Chief of Staff of Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      FEMA Administrator
                      FEMA, Chief of Staff
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Audit Liaison (DP8A04)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  FEMA’s Sourcing for Disaster Response Goods and Services


                                          Page 30

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
